<html>
<title> - RESEARCH BEING CONDUCTED IN NATIONAL MARINE SANCTUARIES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
        RESEARCH BEING CONDUCTED IN NATIONAL MARINE SANCTUARIES

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                   SEPTEMBER 29, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-113

                               __________

           Printed for the use of the Committee on Resources



                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources




                      U.S. GOVERNMENT PRINTING OFFICE
 51-770 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       FRANK PALLONE, Jr., New Jersey
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
WALTER B. JONES, Jr., North          SOLOMON P. ORTIZ, Texas
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 29, 1998..................................     1

Statement of Members:
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................     2
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     3
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Earle, Dr. Sylvia A., Explorer-in-Residence, National 
      Geographic Society.........................................     4
        Prepared statement of....................................    24
    Foster, Dr. Nancy, Assistant Administrator, National Oceanic 
      and Atmospheric Administration.............................     8
        Prepared statement of....................................    33
    Tysall, Terrence, President, Cambrian Foundation.............     9
        Prepared statement of....................................    41



   OVERSIGHT HEARING ON RESEARCH BEING CONDUCTED IN NATIONAL MARINE 
                              SANCTUARIES

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 1334, Longworth House Office Building, Hon. Jim Saxton 
(chairman of the Subcommittee) presiding.
    Mr. Saxton. Good morning. The Subcommittee on Fisheries 
Conservation, Wildlife and Oceans will come to order.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The National Marine Sanctuaries Act of 1972 
authorizes the designation of areas in the marine environment 
with nationally significant aesthetic, ecological, historical, 
or recreational values as National Marine Sanctuaries.
    The primary objective of this law is to protect marine 
resources, such as coral reefs, sunken historical vessels or 
unique habitats, while facilitating all compatible public and 
private uses of those resources. An active research program is 
a vital component of the overall conservation and management 
programs of these sanctuaries.
    Twelve National Marine Sanctuaries have been designated on 
the Atlantic, Pacific, and Gulf Coasts, in Hawaii, and in Guam. 
One additional area in the Great Lakes is an active candidate 
for designation.
    Section 309 of the Sanctuaries Act directed the Secretary 
to conduct research, monitoring, evaluation and education 
necessary to carry out the purposes and policies of the Act. 
These policies and purposes include comprehensive and 
coordinated coordination conservation and management of the 
sanctuaries; enhancement of public understanding and 
appreciation of the marine environment; and, to the extent 
compatible with resource protection, facilitation of public and 
private uses of sanctuaries.
    Limited funds have led NOAA to rely on outside groups to 
conduct the bulk of the research that is being done in 
sanctuaries. Coordination between researchers and resource 
managers has been very productive, as is evident by the number 
of outside researchers working in sanctuaries. The research has 
provided invaluable information about fish, corals, marine 
mammals, habitats, and cultural resources located in the 
sanctuaries.
    Today we will hear from two groups, the National Geographic 
Society and the Cambrian Foundation, which have had 
particularly fruitful research partnerships with the sanctuary 
program, and we will receive an overview of research in 
sanctuaries from NOAA.
    I look forward to these witnesses.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    The National Marine Sanctuaries Act of 1972 authorizes the 
designation of areas in the marine environment with nationally 
significant aesthetic, ecological, historical, or recreational 
values as National Marine Sanctuaries.
    The primary objective of this law is to protect marine 
resources, such as coral reefs, sunken historical vessels or 
unique habitats, while facilitating all ``compatible'' public 
and private uses of those resources. An active research program 
is a vital component of the overall conservation and management 
programs at these sanctuaries.
    Twelve National Marine Sanctuaries have been designated on 
the Atlantic, Pacific and Gulf coasts, in Hawaii and in Guam. 
One additional area in the Great Lakes is an active candidate 
for designation.
    Section 309 of the Sanctuaries Act directed the Secretary 
to conduct research, monitoring, evaluation and education 
necessary to carry out the purposes and policies of the Act. 
These policies and purposes include comprehensive and 
coordinated conservation and management of the sanctuaries; 
enhancement of public understanding and appreciation of the 
marine environment; and, to the extent compatible with resource 
protection, facilitation of public and private use of 
sanctuaries. Limited funds have led NOAA to rely on outside 
groups to conduct the bulk of the research that is being done 
in the sanctuaries. Coordination between researchers and 
resource managers has been very productive, as is evident by 
the number of outside researchers working in sanctuaries. This 
research has provided invaluable information about the fish, 
corals, marine mammals, habitats, and cultural resources 
located in the sanctuaries.
    Today we will hear from two groups--the National Geographic 
Society and the Cambrian Foundation--which have had 
particularly fruitful research partnerships with the sanctuary 
program, and we will receive an overview of research in 
sanctuaries from NOAA.
    I look forward to the witnesses testimony.

    Mr. Saxton. Before I recognize my friend, the gentleman 
from California, let me just observe that our witnesses today 
are quite notable. Dr. Sylvia Earle is with us today. Dr. Earle 
has become well-known--extremely well-known, I might add--and 
we are particularly honored to have Dr. Earle with us this 
morning.
    While we were talking just prior to the hearing, we talked 
about issues that we deal with, with regard to the ocean on an 
ongoing basis, the subject of non point source pollution, which 
is well-known to us here; the subject of making sure that we 
preserve coastal areas because they are so immensely important 
to the ocean environment; and, of course, the marine 
sanctuaries program, which we are formally here to discuss 
today.
    So welcome, Dr. Earle. We appreciate very much that you 
have given of your time to us, and we look forward to hearing 
from you this morning, along with our other witnesses, of 
course.
    Mr. Farr, the gentleman from California, for whatever 
statement he may wish to make.

 STATEMENT OF HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Farr. Thank you very much, Mr. Chairman. I appreciate 
your having this hearing today, and also with Mr. Gilchrest 
here. These are the three real strong advocates of good ocean 
policy. And I appreciate the opportunity to speak with these 
distinguished witnesses.
    I just want to welcome to this hearing room Dr. Earle. I 
got to know Dr. Earle in 1992 when we inaugurated the National 
Marine Sanctuary in Monterey. Monterey Bay National Marine 
Sanctuary is the largest of our 12 sanctuaries, and the 
phenomenon of this sanctuary is an underwater canyon called the 
Monterey Bay Canyon, which is about 12,000 or 13,000 feet deep. 
It is essentially the Grand Canyon under the sea, right next to 
the shore.
    And Dr. Earle's new role with the National Geographic is to 
be Explorer-in-Residence of the Oceans. What a great title. I 
think we ought to refer to her as Ms. Neptune of the Modern 
Era. When we had the National Conference on the Oceans in 
Monterey, Dr. Earle and I went to Portugal.
    And I think what was so amazing about that opportunity to 
be on a dais in Portugal was that she was conducting an 
interview with Jacques Cousteau's son who was underwater in the 
ocean in Monterey conducting a live, interactive dialogue with 
students who were onstage in Lisbon, Portugal.
    That technology of bringing scientists and students 
together in real life situations is something that no other 
science--I mean, if you think about it, we have not yet done 
that with space travel. We sort of have timed, set-up 
interviews, but this opportunity to have science and discovery 
and the inquisitive mind to be linked in real time in real 
laboratories was really exciting. And I think our Committee is 
blessed with the opportunity to have jurisdiction on those 
issues.
    So thank you, Mr. Chairman.
    Mr. Saxton. Thank you. Mr. Gilchrest, the gentlemen from 
Kennedyville, on Maryland's Eastern Shore.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Thank you, Mr. Chairman. I thank Sam for 
that introduction to our witnesses. Those words ring true. I 
have to go to another hearing that started at 10 a.m. that 
deals with another issue on the oceans, and that is 
interdicting illegal migrants and drugs.
    So it is a slightly different dimension, although I want to 
thank all of our witnesses this morning for their dedication to 
service in this most extraordinary undertaking, which is to 
help us to understand the virtual mechanics of creation and how 
those natural processes need to be sustained, now more than 
ever, in order for future generations to have the same 
prosperity and the same basic blessings of freedom and liberty 
that we have now.
    And that is going to happen when we understand how we 
manage the quickly diminishing natural resources while we are 
all collectively marooned on this infinitesimal blue and white 
speck in the midst of an infinite hostile environment called 
the universe. We've got no place else to go. So as these 
resources become diminished and the population increases, 
threats and divisive, volatile conflicts are bound to explode. 
So we, together, as astronauts on this little spacecraft, some 
of those things that we learned in elementary school have to be 
revised in our consciousness.
    So it's through your efforts to educate the public and 
elected officials as to the importance of these things, the 
vital importance of sustaining, and then somehow, restoring our 
natural resources, will be very, very important. I apologize, I 
would like to stay here rather than talk to the Coast Guard 
about interdicting drugs. But that's also important.
    And I would have missed this opportunity if it were not for 
the gentleman from New Jersey insisting that I come down here.
    [Laughter.]
    And Jim, I am going to take a couple of these things, if 
it's all right, since they have some interesting things on the 
inside. Thank you.
    Mr. Saxton. Thank you very much, Mr. Gilchrest.
    Welcome to all of our witnesses this morning. Let me try to 
frame at least how I see us proceeding this morning, and 
perhaps frame the issues. In a very nice article about Dr. 
Earle, Roger Rosenblatt writes, when speaking of the oceans, 
``it defines and characterizes,'' he says, ``the Earth, one 
flowing body of water with different names and climates and 
covering almost 75 percent of the planet. The oceans encompass 
97 percent by volume of all the Earth's living space. Nearly 
half the world's population lives within 60 miles.''
    And then he goes on in another paragraph to talk about Dr. 
Earle and the book that she has authored, `` `Sea Change,' '' 
and he says, ``In her book, `Sea Change,' and before 
legislators and others in power, Dr. Earle argues that the 
oceans give us a 4 billion-year-old legacy, the living history 
of the world, and that we are blithely squandering our 
inheritance.''
    I wanted to say that because I take every opportunity to 
try to convey to the public the importance of the issues that 
we deal with, many of which are often taken for granted.
    Dr. Earle, welcome. We look forward to your perspective 
this morning, and the time is yours.

 STATEMENT OF SYLVIA A. EARLE, EXPLORER-IN-RESIDENCE, NATIONAL 
                       GEOGRAPHIC SOCIETY

    Dr. Earle. Thank you, Mr. Chairman, members of the 
Committee, staff, and those who are here to watch the action 
take place. Yes, I am here as the Explorer-in-Residence of the 
National Geographic, but I am here in part as an ambassador for 
the fish and the other creatures out there who don't have a 
voice of their own.
    I am also here in my capacity as a businesswoman. I am the 
founder and currently the chairman of Deep Ocean Exploration 
and Research, and founder of another small company and a member 
of several corporate boards. This has given me a perspective of 
the importance of protecting the assets, that a sound economy 
depends on a sound environment.
    And Roger Rosenblatt was right, you know. We are 
squandering the assets. And the sooner that we, as a nation, 
can face up to the importance of taking care of those assets, 
taking care of the systems that are at the heart and soul of 
certainly the environment, but just as convincingly, the heart 
and soul of our economy, the better off our future looks.
    But I am here primarily today in my capacity as director of 
the Sustainable Seas Expeditions, a private-public partnership 
that is aimed at exploring and conducting research in this 
nation's 12 national marine sanctuaries, those young, but 
promising, counterparts of the National Parks; and to develop, 
in cooperation with the National Geographic and with others, a 
vigorous program of research and exploration, of public 
outreach and education.
    The primary partner in the research and exploration 
aspects, and other aspects as well, of the Sustainable Seas 
Expeditions is NOAA, the agency within the Department of 
Commerce with oversight of the marine sanctuaries.
    But as well, the U.S. Navy has come on board with a 
commitment for ship time, and we are exploring other avenues of 
collaboration with the Navy; with NASA; with the Department of 
Transportation; the EPA; and private institutions, including 
the Monterey Bay Aquarium Research Institute and the Monterey 
Bay Aquarium; Woodshole Oceanographic Institution; Harbor 
Branch Oceanographic Institution; Mote Marine Laboratory; the 
Center for Marine Conservation; the Jason Foundation; the New 
England Aquarium; and others.
    It's amazing. It seems that this whole idea of coordinating 
an expedition to explore our own aquatic backyard is serving as 
a kind of lightning rod, a powerful catalyst that appears to be 
unleashing pent up interest in ocean research and exploration 
with an underlying mission; and that is to establish a solid, 
factual base to support what common sense should tell us is in 
the nation's economic and environmental best interests, the 
protection of those natural productive ecosystems such as those 
now embraced in the 12 national marine sanctuaries.
    We can be, and we are, in fact, extremely effective at 
extracting and consuming the ocean's living wealth, but we know 
very little about how to restore depleted species and damaged 
systems, other than to protect the source, that essence of what 
is now embodied in the sanctuary program.
    But one problem in achieving protection for the nation's 
ocean assets is that old bugaboo, funding; and $12 million or 
now, even $14 million to service 12 marine sanctuaries 
embracing some 18,000 square miles is a fraction of what is 
required to do justice to the issues at hand.
    I'm mindful that as important as the little Sojourner was 
in exploring that other planet, Mars, at a cost of $25 million, 
what a similar commitment would do for the marine sanctuary 
program. Twenty-five million dollars would take care of about 2 
years of funding for our sanctuary program at its present 
level.
    The Sustainable Seas Expeditions were conceived when I was 
here in Washington serving as the chief scientist of NOAA in 
the early 1990's. At the time, I guess I had a wake-up call, a 
serious one, when I was asked to go with then Secretary of 
Commerce Mosbacher and about 100 U.S. businessmen and 
Congressmen to go over to the Persian Gulf to look at the 
aftermath of the Gulf War.
    Most of the people on board were there to look at restoring 
the economy of that war-torn country. What really impressed me 
was the way that we human beings--one in particular in this 
case, Saddam Hussein--was able to bring about the collapse of 
what many regard as the cradle of human civilization and turn 
it almost overnight into a graveyard.
    I was also impressed by the reaction of the businessmen, 
those hard-headed number-crunchers, and the Congressmen, also 
hard-headed number crunchers, thinking about what it takes to 
restore the economy. It got right back to the business of clean 
air, clean water, a place to live, the resources that are at 
the heart and soul of having a restoration or a continuation of 
a sound economy.
    Well, back home here in Washington, I certainly became 
inspired to do whatever I could to do what can be done at this 
point in history to protect the nation's underwater assets. But 
I was struck--and I have been, I guess most of my professional 
life--about our lack of access to the sea; how our inability to 
get much below 100 feet where divers conveniently can go, does 
limit our capability.
    I was also struck by the fact--am still--about the lack of 
awareness that people seem to have about the existence of the 
marine sanctuary program or that this country has jurisdiction 
over an area underwater that exceeds the amount that is above 
water, that is, that which is embraced within the exclusive 
economic zone, the EEZ, that extends from the coastline out to 
200 miles.
    The lack of knowledge about the oceans really inspired the 
expedition and the need to do something. Again, Saddam Hussein 
can do something negative as one person that affects the planet 
as a whole. Maybe individuals can take action themselves to 
make a difference in a positive sense, I reasoned.
    And thus, was launched the concept here, something that is 
in parallel, I think, comparable in some ways to the Lewis and 
Clark Expedition over two centuries ago, where the idea of 
going out to explore the American West so that we could better 
understand how the Nation could take responsibility for that 
vast area. We have an equally vast, a greater area that now 
awaits us a few feet off the shore.
    And with new technologies that have been developed in 
recent years, including one that we want to adapt for this 
Sustainable Seas Expedition, the little deep worker. It is 
capable of going down to 2,000 feet and is so simple to operate 
that even scientists can get in and take off and explore on 
their own.
    We have enlisted the aid of the marine sanctuary program 
and the research coordinator, Dr. Steven Giddings, and his 
staff and the managers of the sanctuary program, to help 
develop a program of research and exploration that will extend 
over the next 5 years, with initial funding from the Richard 
and Rhoda Goldman Foundation. Five million dollars has been set 
aside and channeled through the National Geographic Society to 
get us on our way.
    But other funding is building, so that in the several 
months, the 5 months since the expeditions were launched, 
funding that essentially has doubled our capacity to do what we 
set out to do when the program was launched back in April now 
seems possible.
    We have assembled a technical advisory committee for 
science and another one for education that will help to guide 
us along the way. A call for collaboration that was issued in 
early August resulted in more than 60 proposals that came by 
the end of August, the first week, actually, in September, of 
people from around the country associated with many scientific 
institutions who were inspired to do what they can using 
funding sources that they are coming up with to work with us to 
explore our own aquatic backyard through the sanctuary program.
    We want to leverage private funds to go even further than 
this. Our success will be measured by our ability to think of 
new ways to work together, to share talent and equipment, 
breaking down the institutional barriers and building on the 
discoveries as they come about.
    We really need your assistance in helping us to achieve our 
goals by encouraging public agencies to match the funds that we 
are raising on our own and the resources that we are deriving 
from private initiatives. We need you to encourage the 
development of new ways to accomplish individual program 
objectives through joint ventures. And certainly, we need your 
leadership to inspire involvement of the public in this new era 
of ocean exploration.
    Many of our current ocean problems, such as storm water 
pollution--I attended a conference yesterday in Long Beach, 
largely attended by, as far as Federal agencies are concerned, 
representatives from the Environmental Protection Agency. But 
there were a lot of private institutions there as well looking 
at non point sources of pollution that ultimately flow into the 
sea.
    It is hard to get our arms around these issues, but this is 
our charge at this point in history, as never before. We not 
only have the opportunity, but the obligation to act, to do 
what we can to protect the resources so important to all of us.
    You know, right now there are several pieces of legislation 
that are pending that have passed the House, passed the Senate, 
and are in conference, but are in danger of being allowed to 
slip by unless quickly some action is taken.
    The Coral Reef bill is a great opportunity for support of 
ocean exploration and research. The Clean Water Initiative 
relates to the business I was up to yesterday with the storm 
water, but it is much more all-embracing than that. And 
certainly, the Oceans Act that is now in conference. If we can 
get behind these important pieces of legislation and push them 
over the edge, we will have accomplished a great deal during 
this Year of the Oceans, to get behind what it takes to do in 
other ways what the Sustainable Seas Expeditions is all about.
    We are embarking on a new program of exploration, public 
education, research that can lead to better conservation. And 
at the same time, with this building of a better kind of 
partnership between public agencies and private institutions, 
we can change how we protect the ocean and strengthen the 
National Marine Sanctuaries program. These expeditions can act 
as they already have shown some capacity for doing, as a 
catalyst to be the public and private sector to work together 
in ways that can accomplish more than Federal funds alone can 
achieve.
    I really, with my whole heart, look forward to working with 
you in any way that I can to inspire a sea change of attitude 
about the way we look after our oceans.
    [The prepared statement of Ms. Earle may be found at end of 
hearing.]
    Dr. Earle. And Mr. Chairman, I brought a short video clip 
with me that was prepared by the National Geographic that 
describes the Sustainable Seas Expeditions, and I would like, 
if possible, to share that with you and members of the 
Committee at this time.
    Mr. Saxton. Thank you very much. Obviously, we are all 
prepared for that, and we look forward to seeing it.
    Dr. Earle. Thank you.
    [Video.]
    Mr. Saxton. Thank you.
    In the film, we got a glimpse of the role of NOAA, and 
here, I suspect, to tell us about that and some other things, 
is Dr. Nancy Foster. Dr. Foster, the floor is yours.

 STATEMENT OF NANCY FOSTER, ASSISTANT ADMINISTRATOR, NATIONAL 
             OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Foster. Good morning. I am Nancy Foster, as you said. I 
am the Assistant Administrator for the National Ocean Service, 
and I want to tell you that I am not sure which is worse, 
following Sylvia or following a National Geographic video.
    [Laughter.]
    But here I am. First, what I would like to do is talk a 
little bit about research partnerships in the National Marine 
Sanctuary program and why they are important to us. These kinds 
of partnerships are indispensable to us as we go about doing 
our business, and I think it is particularly relevant that we 
are highlighting them at this point in time, as Sylvia said, 
the Year of the Ocean, coming so closely on the heels of the 
National Ocean Conference.
    One of the key elements that the President spoke of was the 
exploration of the ocean using advanced underwater technology, 
which is exactly what our Sustainable Seas Expedition is going 
to do. And you certainly know, as well as I do, that this kind 
of knowledge about the ocean is only going to be gained today 
through the types of public and private partnerships that you 
are hearing about.
    Partnerships are critical to us in several ways. One, they 
allow us to do things that we could never possibly do with 
appropriated dollars alone. They help us get the scientific 
information that we need to understand these complex marine 
ecosystems, and they also help provide the technical 
capabilities that we need in order to manage them effectively.
    But in addition to this, they also help us strengthen 
public awareness of the critical importance of this kind of 
research to the long-term conservation of these resources that 
the public is so concerned about.
    We need scientific information to make sound decisions, to 
implement our field operations, and also to evaluate the 
effectiveness of the management strategies that we are 
employing at the present time.
    Now, I can't emphasize strongly enough that a program like 
ours can never do what needs to be done on its own. And that's 
where the value of partnerships really stands out. And we've 
just done something that hopefully will help us be a much more 
effective partner. We are completing, for the first time, a 
National Marine Sanctuary Research Plan, and this is going to 
strengthen our ability to attract cooperation and, hopefully, 
resources from the myriad of other NOAA programs that are 
relevant to the sanctuary program.
    Now, one very important component of this research plan is 
monitoring. We are going to be establishing a nationwide 
systemwide strategy setting up criteria and standards for not 
only data quality, but also data comparability. And we are 
excited about this, because our newly established National 
Ocean Service Science Office is working with the sanctuary 
program to develop this monitoring strategy. We want to make 
sure that what we do in sanctuaries is compatible with the 
other monitoring programs that we have, both in NOS and in 
NOAA, things like monitoring for harmful algal blooms and our 
national status and trends program.
    I couldn't speak here without mentioning one of our special 
projects in the sanctuary program. You are going to be hearing 
from our friends in the Cambrian Foundation about the 
cooperative effort surrounding our Monitor Project. I think 
it's fair to say that no other sanctuary epitomizes 
partnerships in the way that this one does. And it's no 
exaggeration for me to say that since the very beginning back 
in the 70's when this sanctuary was formed, we would never have 
been able to protect this special ship, were it not for 
partnerships, people willing to help us.
    And today, I think I can safely say that we would have very 
little chance of saving this ship were it not for special 
partners like the Cambrian Foundation and the U.S. Navy, the 
Mariner's Museum in Norfolk, and just countless other folks who 
have given time and resources and energy to the ship.
    So, in conclusion, I would just say that NOAA has long 
recognized the value of research partnerships, and we look 
forward to the coming year when we are implementing this 
research plan and establishing new partnerships and creative 
partnerships. Thank you.
    [The prepared statement of Ms. Foster may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much.
    We are going to move right along now to Terrence Tysall, 
who has been doing some work deeply below the sea, from what we 
hear.

  STATEMENT OF TERRENCE TYSALL, PRESIDENT, CAMBRIAN FOUNDATION

    Mr. Tysall. Well, deep is certainly a relative term, and 
sitting at this table, I don't think I can use that particular 
term. But gentlemen and ladies, everyone involved, I 
appreciate, first of all, the opportunity to come up here and 
speak. I am really resentful of the opportunity to speak behind 
these two heavy-hitters. I feel like a lead in band for a big 
concert or something; it's kind of sad, but I will do my best.
    One of the things that Representative Gilchrest mentioned 
earlier and has been echoed by Dr. Earle and Dr. Foster 
consistently is cooperation. I am not going to beat the horse, 
but it is absolutely essential. The existence of the Cambrian 
Foundation is based on it.
    What we do, the analogy that we repeatedly use in our tours 
across the country to speak to people, is the story from our 
youths about Stone Soup. I pretty much hop from place to place 
with my rock, which is the only asset that I have, and I take 
this stone and I go to village to village or from sanctuary to 
sanctuary and try to get people motivated to work together.
    The underlying motivation of this for me personally is the 
fact that as a young man growing up in school, I was struck 
with a lot of the 1950's movies, the International Geophysical 
Year in 1955, and they promised us by the time that I was going 
to get old that we would have communities on the bottom of the 
sea and I would be a marine biologist and we'd be doing these 
wonderful things. And it's kind of sad. I grew up and 
supposedly there was nothing left to explore. I didn't quite 
have the grades to do some of it, and the next thing I know, 
there is no funding for research and things like that.
    So what we decided to do was take the bull by the horns, so 
to speak, and realize that things can be done. Obviously, a 
scientific point of view is absolutely essential in any of 
these things, but it's the whole thing of developing a 
partnership. I learned a great lesson from the explorer that 
went before all of us, and that is Jacques Cousteau. Mr. 
Cousteau obviously went out there; he never claimed to be a 
highly degreed individual, but he was an explorer and he 
brought the scientists along.
    So, in our short 4-year existence, really, following in his 
footsteps, we've done work in Belize, been the first people to 
journey to the bottom of the Blue Hole of Belize, which is 
about 410 feet on scuba, to get data and collect things that 
you plain cannot do with submersibles; to explore caves and get 
information on our sea level changes over the millennia.
    So what we've tried to do with situations like the Monitor 
is take that selfish interest of hey, we'd like to go see this 
wonderful thing that NOAA is protecting for us and protect it. 
And constantly, what we heard was we don't have the funding, we 
can't do it. And so it started as almost a grass roots thing 
with the Monitor Marine Sanctuary manager, Mr. John Broadwater. 
We said fine, John, you have needs that you need; how can we 
help? And it's almost a scientific lend-lease. They give us the 
ability to dive and to work in these places and we try to give 
them as much usable data as possible.
    Because we can sit and complain about problems, and we can 
point them out, which is our American birthright, it seems 
lately, that here is a problem, here is a problem. I'd like to 
do that, but I'd also like to help everybody solve them.
    So what I would like to do very briefly is I want to show a 
5-minute video. I will narrate over the top of it. It's going 
to show some of our ideas working on the U.S.S. Monitor. For 
those of you that don't know, the Monitor is obviously a Union 
Civil War ironclad, quite pivotal in the Civil War, sunk 
actually on the first day of 1862. And she sits at 240 feet, 
which causes a snicker, because as they say, effective work by 
scuba divers can't be done past 100. So we'll see if we can 
show some difference.
    Now obviously, on this video you saw the Cambrian 
Foundation. No way, shape or form us taking credit for this 
whole thing; we are a partner.
    [Video.]
    I appreciate it. Thank you.
    [The prepared statement of Mr. Tysall may be found at end 
of hearing.]
    Mr. Saxton. Well, thank you very much, all three. Let me 
start with a rather broad, general question and then any of you 
can respond to it that wish to. My experience with ocean 
management and trying to make progress to alleviate ocean 
mismanagement has, as you might guess, been primarily on the 
East Coast of the United States, for obvious reasons.
    Every year for the last 14 years, 500 or 600 of my friends 
get together at a lobster bake and we have a great time. This 
year, individual after individual who attended the function 
came to me and said, look at that ocean, isn't it beautiful. It 
looks as blue as if we were in the Caribbean somewhere.
    And when I heard that, I thought back to the summers of 
1987 and 1988 when people didn't come and say, look at the 
beautiful ocean. They said, let me out of here, I don't want to 
be near it, because they were afraid. There were algaeblooms, 
there was medical waste, there were dolphins floating up out of 
the ocean onto the beaches. And it was, in the Northeast, at 
least, not a very pleasant set of circumstances.
    And so we began, here in this room and in one down the 
hall, at least, we began to look at how we could solve some of 
these problems. And I guess I want to make two points. The 
first point is that we did so, because the public said they 
would not put up with anymore of the kinds of circumstances 
that existed.
    And the second point is that, in spite of the fact that we 
can brag about what we did, we did all the easy stuff first. We 
dealt with point sources of pollution, basically. We stopped 
dumping New York and North Jersey sludge in the ocean. We 
stopped all the chemical dumping in the ocean. We stopped all 
the offshore wood burning. We made garbage barges put nets over 
the barges. We passed a law to require that medical waste be 
tracked from cradle to grave, so to speak. And we took care of 
all the things that we could kind of get our arms around.
    And the second point I guess I want to make is that now we 
still have the most difficult part of the job ahead of us 
because the pollution that is getting to the ocean today gets 
there because of our everyday lives, not because of some 
inexpensive way of disposing of medical waste or garbage that 
is falling off of barges or burning wood offshore or dumping 
chemicals in the ocean or dumping sludge in the ocean. It comes 
from a very different source.
    So the second point I would like you to address is, I 
believe we were successful in dealing with many of the point 
sources in the East Coast, because the public said you've got 
to do something and there was great public sentiment to do 
something, so we set out to do that something and it dealt with 
the easier part of the problem.
    So the question is how can we work together as partners, 
which is what we've talked about here a lot today, to mobilize 
public sen-

timent so that we can take care of the more difficult of these 
issues.
    Dr. Earle. Well, that's an easy question. Do you want to go 
first.
    Dr. Foster. No, you can go.
    Dr. Earle. The key to solving this really tough problem is 
in letting people know that there is a problem, in identifying 
the nature of the issues. And this goes back to establishing 
the baseline information that is required to show the changes 
over time.
    Unfortunately, we did not start a monitoring program back 
when we were kids that would give us before and after 
consequences of our increasing population and increasing 
pressures on the ocean, increasing contamination of the water 
system, land and sea.
    But we can retrieve through archival sources some 
information and we can start right now with an increasingly 
effective system of baseline monitoring, establishing 
underwater observatories, if you will. And it seems that the 
National Marine Sanctuaries are a logical place to really 
emphasize such monitoring.
    Of course, some of this has been going on through NOAA and 
other agencies, the EPA. Some of it has been undertaken in 
terms of individual scientific projects. But I think that we 
are looking now at an opportunity to pull things together, both 
in terms of developing the knowledge base, a starting point, a 
new starting point, so that 5 years, 15, 50, 500 years from 
now, we can look back to this era as a time when we seriously 
began to assess the state of the oceans from the inside out, 
using, of course, the new modern techniques that NASA has 
provided from overview surveillance, but coupling that with 
underwater observations and instruments that we place 
specifically in areas where we want to get good, solid 
information, and link it all together with some consistent 
means of establishing assessment.
    That's what Dr. Foster was referring to in her remarks. And 
we are so fortunate to have Dr. Foster as the person who is 
really working with us with the Sustainable Seas Expedition, 
the liaison for NOAA, as one who was once the head of the 
National Marine Sanctuary program and is certainly well 
acquainted with the issues.
    I think, if I can just take another moment, that this needs 
to be coupled further with not just what we are putting into 
the ocean, but also assessment of what we are taking out.
    It is the combination of how we are affecting the 
ecosystems of the sea as a whole through the chemical changes 
that are taking place by our actions on land and the awareness 
that what we see now, although it has improved--you are 
absolutely right, Mr. Chairman, it has improved in the last few 
years through actions that have been taken, which is good news.
    The scary news is that, despite those positive things, 
there is this profound ignorance of the nature of the oceans as 
a whole, plus the awareness that our numbers are increasing in 
the very areas that are going to have the most impact on the 
coastline and the offshore areas beyond.
    But we need to understand what we are doing to the ocean 
wildlife, that which makes the oceans resilient and capable of 
dealing with the changes that we are imposing through pollution 
and other issues. We are destabilizing the ability of the sea 
to recover as it historically has been able to, both by what we 
are putting in, but also by what we are taking out.
    Mr. Saxton. Dr. Foster.
    Dr. Foster. Yes, just a couple of thoughts. Over the past 
year, going out and trying to meet with constituents, I've been 
impressed with how sophisticated the public has become. And one 
of the first questions that they always say, or one of the 
first points they make is why can't you guys in the Federal 
Government get your act together? You know, get your act 
together and then come and talk to me, because I think they are 
tired of having the same conversation with so many agencies.
    And I think that's one thing that we've really been working 
on the past 2 or 3 years, and I think that will make a 
difference, because it strengthens the involvement and the work 
that leads toward resolution of these issues.
    The other thing that I think is critical is that we work on 
a new dialogue, if you will, with the public, a new way of 
involving them. The government is so comfortable doing business 
the way we've always done it. I decide what the issue is, I 
write a paper, I give it to you, you review it, and then I do 
whatever.
    And we are trying to convince people that we are serious 
about getting them involved from the very beginning, having 
them help you design possible activities and then hold them 
accountable, as well as the government agencies, for going away 
from the table and seeing that something happens. I think 
people respond very well to that getting involved with us.
    Mr. Saxton. Thank you. Mr. Tysall, do you have----
    Mr. Tysall. Absolutely. I think everyone mentioned a key 
word here, and that is awareness. The big thing that we are 
talking about here is obviously lots of research programs and 
funding for these research programs.
    But in our personal existence with the Cambrian Foundation, 
if we don't get the word out, if we don't get this awareness to 
the general public, to our people that make our very existence 
possible, they don't know what's going on. And I think there's 
a big gulf, a separation between the academic community, the 
government, and the regular folks.
    And I'm not sitting here saying I'm a representative of the 
working joe or anything, but I know what it's like. I know the 
fact--and this is certainly not to cast stones--but in 1990, we 
were not allowed to conduct activities on the Monitor. It was 
forbidden by the government. They said, oh, you cannot, you 
don't have the ability to do that.
    Well, it took a lot of head banging to get this to happen. 
Now, what's neat is we can put all that stupidity behind us 
from other people that let that happen and it's over and done 
with. We can get down and get to work.
    And every member of a Cambrian Foundation team are people 
who are taking time out of their days, that are literally 
risking their lives here, guys. We are talking people that 
don't have the pressure hull of a submersible to rely on, that 
all these dissolved gases and all these dangerous conditions 
face them every time they go down on the Monitor.
    And no one is asking for a hero's welcome, but these are 
people that take time away from their jobs at Disney World in 
Florida, take time away from their dive shops in Virginia, take 
time away from their job at Boeing out in Seattle, or people 
from Canada, Mexico, Great Britain. All these people that take 
time, take vacation time to come out and help make sure that 
this particular piece of history, or in the case of the monk 
seal study, this information gets done.
    And we are not playing pseudo-scientist. We just want to 
help the scientists get the data. And it's important and it 
doesn't lessen anybody's role. And it's really neat, because 
it's that whole thing of blending. Because as we all know, we 
can all get so much more done working together rather than 
pulling apart.
    Dr. Earle. Mr. Chairman, if I might add a bit to this. One 
of the reasons that I think the partnership with the National 
Geographic is so important in this respect is the power of that 
institution to communicate to the public at large, as well as, 
of course, to the scientific community, a part of the public at 
large.
    But consider that the magazine that published a great 
overview article about the marine sanctuaries last March 
reaches millions of people. There is a project in the works now 
to look at Monterey for a television program, which will reach, 
maybe before its lifetime comes to an end, hundreds of millions 
of people.
    I am producing a book in collaboration with--well, through 
the National Geographic that will published next year that will 
reach yet another audience. The magazine, the lectures, the 
many avenues that that institution has really provides an 
amplifier to all of this in terms of a bridge to the general 
public.
    Just as in the early days of the National Park Service and 
the whole idea of protection was greatly helped by the 
influence of the National Geographic, through the many articles 
and meetings and other ways of communicating to the public, so 
now is there an opportunity for ocean care and the National 
Marine Sanctuary program to gain a boost from the input of 
organizations, in this case, very notably, the National 
Geographic Society.
    The Center for Marine Conservation is another example of a 
private membership organization that's been around for 25 years 
devoted to ocean conservation, but a major part of their 
program has been to communicate with the general public and to 
arouse their support for the National Marine Sanctuary program 
and all that embraces.
    I think there are many opportunities here, but it takes the 
leadership of the Federal Government that has the jurisdiction 
over these areas to provide the backbone that will then be 
joined by these various private partners.
    Mr. Saxton. Thank you. Mr. Farr.
    Mr. Farr. Thank you, Mr. Chairman. I am very intrigued by 
your analogy to the Lewis and Clark Expedition, and I was 
thinking on your comment about sound economy depends on sound 
environment. That California, with 32 million people and sort 
of a nation-state economy, has done something about 
understanding its environment.
    Every city, county in the State is required to have an 
analysis of the hazardous hazard zones, flood and earthquake 
and other kinds. They have done an analysis of all the historic 
buildings that are in their jurisdiction, analysis of all the 
open space. We have really gone down to micromanaging and 
identifying every river, valley, mountain, watershed system, 
which then allows us to attack the problem of nonpoint source.
    But then when we get into the oceans, your analogy is that 
we are not there. I mean, we were further along 200 years ago 
preparing for the Lewis and Clark Expedition than we are today. 
I wonder, it would be interesting to see what the Federal 
dollars committed to the Lewis and Clark Expedition would be 
today, if we had to make the same type of monetary commitment 
to exploration. I am sure it would exceed the amount that you 
requested.
    One of the things that I want to ask you about is 
identifying this need. I mean, when Lewis and Clark went out 
thinking of exploring that land, nobody invented jeeps or 
snowmobiles or video cameras or GPS systems or appropriate 
clothing. They didn't have any Zodiac rafts to go down those 
rivers.
    I mean, what are the types of equipment that we need to do 
this exploration, to thoroughly make it user-friendly and not 
just stationed. I know that the titanium subs are so expensive, 
we can't do it. But are there less than those types of vehicles 
that could be available in every marine sanctuary?
    You know, we don't even have the equipment. We don't even 
have the jeep that the National Park Service or the Forest 
Service has, or the truck, to explore what we have 
responsibility for, to access it. What are those kinds of 
equipment that we need to have, if you had that list?
    Dr. Earle. Well, thank you for that question.
    [Laughter.]
    Yes, we are really fortunate to have come along when new 
equipment has given us access as never before, but it's a 
tease. It just gives us a taste of what the potential really 
is. In August, I had an opportunity to spend a week in 
Aquarius, our underwater counterpart of the Space Station, 
sitting down in the Florida Keys in 60 feet of water with five 
colleagues.
    And our mission was to try to do what people take for 
granted they can do when they go out in the forest or in the 
desert. We spent a week exploring and monitoring the area and 
looking at places that Dr. Steve Giddings had established 4 
years before as baseline transects, places that were documented 
with video cameras to then go back and see what it was like 4 
years later. And we'll go back again in the future, presumably, 
to those same places, something that we ought to be replicating 
in many parts of the ocean. But here, at least, is a starting 
point in this one site.
    But it's the only site, not only in this country, but in 
the world where there is an underwater laboratory, a working 
underwater laboratory where scientists can go and spend the 
kind of time that we take for granted we can apply when we go 
visit any part of the land. I mean, we had a day and night 
living underwater, sometimes as much as 10 hours a day that we 
could actually go out in the sea.
    But people do that all the time in the desert or in the 
forest or, if you want to go visit New York, you expect to be 
able to walk the streets and not just take 20-minute excursions 
a few feet from your hotel or your car. But in the ocean, we 
are really constrained.
    Now, my colleague here from the Cambrian Foundation has 
described some really great techniques for taking individual 
divers down, but these are systems available to not everybody.
    Mr. Farr. We need systems like that in place where 
scientists are going to be attracted to go, and I presume that 
the marine sanctuaries and other areas are--you know the spots 
that you would like to go into. But we can't make them 
accessible, or you have to make it by reservation, you have to 
have funding. It seems to me to go in the ocean is about like 
having to climb Mt. Everest. You have to put together an 
incredible financing and scheduling of materiel and money.
    If we had enough money for research in this research 
account, what I'm trying to say is, $25 million doesn't seem to 
me like even a drop in the bucket.
    Dr. Earle. It's frustrating. I wouldn't take a penny away 
from what we are investing in space technology or the space 
research, the program as a whole. I just wish there were equal 
numbers of pennies applied to ocean technology, ocean research.
    Mr. Farr. Well, what are the essentials? I'm just trying to 
see what we basically need. Do you have a list, if you had your 
shopping list of just equipment needs?
    Dr. Earle. Absolutely. Where might I begin? The 
possibilities range from establishing a network of underwater 
observatories. There is already a national plan developing 
along these lines through the National Underwater Research 
Program, in working with institutions such as the Monterey Bay 
Aquarium Research Institute, and Rutgers University, to build 
on existing work that has been invested already.
    But some of these can be done with remotely operated 
systems. Some are best accomplished with the human presence. I 
think the combination is very much in order. We have one deep 
diving submersible now in operation for this country, the 
Alvin. I mean, there are other submersibles, but this is for 
scientific research.
    There are a few that can go to 1,000 feet, some that can be 
leased for access somewhat deeper. But we just lost the Sea 
Cliff, this nation's only vehicle, operated by the Navy in this 
case, for access to about half the ocean's depth. It's being 
delivered to Woods Hole and possibly may be in a sense merged 
with the Alvin to give us deeper access.
    But it's like having one jeep for all of North America or 
rather, for the oceans of the world. In all of the world, there 
are four other manned submersibles capable of going to half the 
ocean's depth, one in France, two in Russia, one in Japan. One 
remotely operated vehicle, developed by Japan, has the 
capability of going to the deepest part of the sea, and it did 
so this year, down to seven miles.
    Where are we, as a nation? We have our eyes focused on the 
heavens above and we should, but at the same time, what about 
the depths below? Why aren't we there in the leadership role of 
applying the technology that we have in hand, and use it for 
understanding our ocean, our life support system.
    You know, it governs climate, weather. It takes care of so 
much that is vital to our survival, and yet we are hampered by 
our ignorance of this vast inner space. So there are 
institutions such as Woods Hole, such as MIT, such as private 
companies that are investing in the development of offshore 
resources, in terms of the research institutions, of exploring 
and understanding. But where is the national commitment to 
couple with this?
    Mr. Farr. You know, we didn't get into space by private 
investment.
    Dr. Earle. That's right.
    Mr. Farr. And we shouldn't get into the national oceans, 
the international oceans and depend just entirely on private 
investment. I think there is a role here for the Federal 
Government.
    And let me just segue to Nancy Foster. There are two things 
I wanted to ask you, Nancy. What has the administration done in 
bringing those requests to Congress; and two, what is the 
status of those funds, those deliverables that the President 
gave at the Monterey conference?
    One of the things, just in light of this discussion, he 
promised out of $225 million that he was going to commit, $194 
of that is committed to three ships. Those are surface 
vehicles, not underwater vehicles. I mean, in your role, is 
NOAA bringing to the attention of the Congress the things that 
Dr. Earle talked about. I don't see those requests coming to 
Congress.
    Dr. Foster. Well, I have to admit we have not done a very 
good job of this in the past. It has not been a budget 
priority. I think we are seeing some changes in that. I think 
that one big boost was the National Ocean Conference, because 
the President and Vice President actually made commitments. I 
think that it's possible that you will see some improvement in 
the 2000 budget. Could I also--go ahead.
    Mr. Farr. I mean, the deliverables were made last June. 
Some of those were not dependent on--I thought they were like, 
things we could do now.
    Dr. Foster. There are some things that we could do now, and 
we are doing some things. In 1999, there will be some slight 
shifts in focus in some of the existing budget that will get 
things underway. So there are two categories of things: the 
things that we can begin now and the things that will be 
dependent upon future budgets.
    Mr. Farr. Well, on behalf, I hope, of the consent of the 
Chair, but could you deliver to the Committee the promises made 
and promises kept list.
    Dr. Foster. Yes, I could, I think.
    Mr. Farr. Thank you.
    Dr. Foster. Could I also just add one thing to what Sylvia 
was saying about equipment. You know, it is even more basic 
than what she was talking about. We, in the sanctuary program, 
and NOAA in general, actually have difficulties getting those 
surface platforms that you were talking about. I mean, getting 
access to the sites that we manage. So it goes from basic all 
the way to sophisticated.
    Mr. Farr. Terrence, what is the motivation for the Cambrian 
Foundation or Institute to do the exploration? And is it only 
for the Monitor, or do you have other?
    Mr. Tysall. Absolutely not. Mr. Farr, it's simple, speaking 
on the basic end of the table. But in the situation with the 
Monitor, there is a situation down there and there is a 
timetable. And this timetable is not going to wait on 
government bureaucracy; it's not going to wait on the fact that 
this defense or this election or whatever. The fact is that the 
oceans were there and they're going to deteriorate that wreck.
    Now that's not pointing fingers, because none of us can 
control that. But the fact is, it's a personal involvement in 
this case that started this whole thing, because you get down 
there and you see this----
    Mr. Farr. But does your money depend on matching from any 
other, like Federal? Is it seed money, or is it just, we're 
going to do this, no conditions?
    Mr. Tysall. I certainly hope this doesn't undermine our 
credibility with this group, but the Cambrian Foundation paid 
its first salary this year of $853 to buy me health insurance, 
and that was it. And the reason this is, is because on one of 
our other projects trying to work with the Naval Historical 
Center, I was bitten by a bug in the Solomon's and nearly 
kicked.
    So we are in a situation where this needs to be done, and 
we are willing. And I'm not trying to come across like oh, this 
self-sacrificing group. But literally, these are people paying 
their own way. I mean, how would we all feel if the Monitor 
protection--you know, everybody says, each member of the 
general public could pay two cents or something.
    Well, I've got 40 or 50 people that are each paying $1,000, 
plus losing time away from their jobs, and then on top of that, 
risking their lives. And please, the Cambrian Foundation isn't 
about that; it's about that cooperation.
    But there are a lot of people like us out there. And we are 
talking about $25 million. I could make the Cambrian Foundation 
operate indefinitely on a million dollar endowment. But we can 
take what we have, to give you an idea of NOAA--and please, 
this is not denigrating the National Oceanic Administration at 
all--but they were asked to put a team on the U.S.S. Monitor, 
and there was very little funding available.
    And NOAA, that is supposed to be the icon of ocean 
exploration for our country, wasn't even able to have the 
divers trained. They had to approach outside civilian sources, 
which we donated. We donated all that training.
    Mr. Saxton. Let me try to focus on this general issue that 
we have been discussing here, Mr. Farr and our witnesses, 
relative to the commitment that the U.S. Government has in 
being a good partner, or the lack of it.
    Let me make a couple of observations. First, let me say 
that this institution--and I am glad you're here, Dr. Earle, 
because I think that the National Geographic Society, and you, 
in particular, and people in the past like the Cousteau 
Foundation, et cetera, provide an invaluable service. And I am 
going to tell you why.
    We, in this institution, reflect in a very general, and in 
a very specific, sense the desires and aspirations and goals of 
the American people. Over time, that happens. And 
unfortunately, it is my observation and my opinion that in 
spite of the serious nature of the issues we are discussing, it 
is my opinion that by and large today, on a scale in 
prioritizing our American desires and needs and aspirations and 
goals, the subject that we are talking about, at least as 
reflected by this institution and by this administration and 
the previous administration, are not very high on that set of 
priority goals.
    Example: The Republicans took control--and I am a 
Republican, as you know--the Republicans took control of the 
House and reorganized in such a way that we used to have a 
committee that dealt with coastal and ocean issues. And we had 
50 people employed doing that in the House.
    Today, it is this Subcommittee and five people, at least on 
the Republican side, and another three or four on the other 
side. That doesn't speak very well for us, unless we are 
reflecting the goals and desires and aspirations of the 
American people.
    With regard to the administration, even more specifically--
and I won't go into the whole diatribe--but I am today writing 
a letter to the chairman of the Subcommittee on Commerce, 
State, Justice, State and Judiciary, which happens to also 
handle funding for NOAA, trying to make the case that the 
administration failed to request adequate funds for Fiscal Year 
1999 to meet the ongoing needs of OAR and NOAA and other 
research programs; and suggesting that it's critical that NOAA 
receive at least $15 million next Fiscal Year for OAR's 
acquisition and data line and stating that this is not an 
increase over Fiscal Year 1998, it is just level funding.
    And so we have an administration and a Congress that I 
believe generally do reflect the desires and goals and needs, 
et cetera, of the American people, and we are not doing much to 
meet the goals that you have said today--and I believe also--
are very important goals.
    And it was for reasons such as those that a few months ago, 
I prevailed upon a very cooperative NOAA to help us name the 
National Estuary and Research Reserve in New Jersey as the 
Jacques Cousteau to try to focus the Jacques Cousteau NERR, to 
try to focus public attention on these issues. And why we spend 
so much time--I think Mr. Farr is a hero in these matters--
trying to draw public attention.
    And I have made this little speech here today because I 
want you to know how much we appreciate the National Geographic 
Society's efforts, and ask you if it's possible to double them 
or triple them, because we need the public support to carry out 
the mission that you, all three of you, have so ably described 
this morning.
    If you'd like to respond, that's fine, but I just needed to 
get that off my chest.
    Dr. Earle. Mr. Chairman, I would like to respond that I 
absolutely agree with your analysis and hope that the National 
Geographic Society will come through with thunderous support in 
response to what is increasing an obvious need.
    And I see, everywhere I go around the country--and I do 
travel both here and abroad quite a lot--there is a change of 
attitude and I think an increasing excitement and awareness of 
the importance of the ocean.
    Coupled with, I would say, the assignment that some of us 
here are taking on to try to work with the public at large to 
promote from outside, as well as from within, to support you, 
there needs to be--and I am very pleased to be in the presence 
of the leadership from within government to give people hope 
that their concerns are not falling on deaf ears.
    There needs to be a balance, of course. And some of it 
sometimes has to be taken almost on faith from the government 
side to show that courageous leadership, to step forward 
sometimes even in the absence of a clear-cut mandate because 
you know it's the right thing to do, because in your lifetime 
you have seen the need grow for the importance of protecting 
the assets.
    And I really champion your championship and yours, Sam 
Farr, for these issues, and for others. Some of your colleagues 
are outstanding stars, heroes in this cause. I just hope that 
we can work together to raise a groundswell at this critical 
point in history.
    This is the time, as I think never before, and arguably 
never again, an opportune moment here at the beginning of a new 
millennium, to pull things together and make a difference.
    Mr. Farr. Dr. Earle, I was very impressed with your sense 
that you have had an incredible opportunity to see things that 
most people on this planet have never seen or experienced, and 
you feel that because of that opportunity you have an 
obligation to do this work.
    It seems to me that those of us on this Committee know of 
that opportunity because we are here today and we have done 
something about it by having an oceans bill that Chairman 
Saxton authored and I co-sponsored. We got it through this 
House with some amendments that we had to take, because 
politics is the art of compromise, and we had to compromise on 
some things that we needed to compromise on.
    But the Senate has done the same and we are now at a point 
where we have just a few weeks left and the obligation that the 
institution has is to get a bill to the President. And 
everybody in this room that's listening to this needs to bring 
some pressure on the Senate and the House. This institution has 
got to respond, because we can't just take it down to the goal 
line and not walk over it. So I would appreciate that.
    And I want to reflect on Chairman's Saxton. We are the sum 
total of the politics of America. If National Geographic has 
the ability to put it out there--but you are not talking to 
everybody here, because you probably wouldn't be following this 
hearing if there weren't interest--you have this obligation to 
make this a political issue, not partisan issue, political 
issue, that it will be brought to the lawmakers of our States 
and the lawmakers of our nation so that they will obligate--we 
are the responsibility for deciding what money the Federal 
Government spends.
    The President proposes, but we dispose. And we can add more 
money if we think it's the right thing to do. But we won't do 
it unless we hear from the American public that this frontier, 
this ocean, this water planet needs to understand itself 
better.
    I think we get it, we just have not put it into political 
terms that we want our politicians to get it also and to 
respond more than just a few people sitting on this Committee, 
but that the whole elected body would make it as important as 
going into outer space.
    The President made that commitment, but it's not going to 
get the kind of attention that John F. Kennedy's statement got 
about going into space. But once the President had made that 
commitment back in the 1960's, as you pointed out, there was 
followthrough. And unfortunately, so far we have had the 
commitment, but not the followthrough.
    You might want to reflect on that, because you've noticed 
it very well on how much follow-through there was to the space 
program versus how disjointed the followthrough has been on the 
ocean. And I think that brings in Dr. Foster's role too, 
because that followthrough is, at least for the administration, 
is partly in her camp.
    Dr. Earle. If I could comment on that with a resounding 
yes. What you say is right on target, absolutely. We have the 
opportunity and maybe, again, the obligation to do in the next 
century for the oceans what in the present century has been 
done for aviation, for aerospace, for what goes skyward.
    It's not either/or; we need to do both. But we certainly 
need to couple our reach skyward with our reach inward. The 
frustrating thing, and at the same time a very positive thing, 
is that in the last 25 years we have learned more about the 
oceans than during all preceding human history, in parallel 
with the development of technology that has given us the kind 
of access that we are now beginning to enjoy.
    That is, among other things, I think the most important 
thing that it's revealed to us, the magnitude of our ignorance 
and how important continued investment in exploration and the 
tools for exploration really is.
    That's why this is such a critical point in time, how even 
a modest investment in the ocean is bound to pay big dividends, 
how by supporting ships that we need to get to where we have to 
go on the surface, by supporting the development of 
technologies that will take us either with remotely operated 
systems or with plates of little submersibles comparable to the 
spacecraft that we take aloft, or places to stay underwater. 
The Aquarius is one example.
    But look at what we are doing, the huge investment we are 
making to go perch in space or to establish an outpost on Mars. 
Why not, at the same time that we go aloft, are we not putting 
equal weight at least--perhaps there's even a case to be made 
for a greater kind of importance in investing what goes into 
the depths.
    Mr. Farr. Why have we not done that? Why has space gotten 
all of the commitment? Has it been the equipment manufacturers, 
because it's a big budget item and they can design equipment to 
go into space? What has pushed us? People don't know much about 
space because very few people ever will be there. All we do is 
look at it. We know a little bit about the ocean; we can touch 
it, get in it and vacation. But why is the energy put into 
space that hasn't been there for the ocean?
    Dr. Earle. I think that is the ultimate mystery of the sea. 
Nancy has just suggested that Star Trek has probably had 
something to do with the fascination with the skies above.
    Mr. Farr. Well, before Star Trek, there was Lloyd Bridges.
    Dr. Earle. Well, this is true. And there is Cousteau and 
others. I mean, you can give a flip answer to it. I had an 
occasion to have a nice leisurely lunch once with Claire Booth 
Luce and we discussed this problem. And she sort of pushed back 
from the table and looked at the puffy white clouds over that 
blue ocean in Hawaii and she said, well, you know, my dear, 
Heaven is in that direction, and you know what's down there.
    [Laughter.]
    But there are some more substantive responses, and some of 
it goes back to the beginnings of NOAA. NOAA was never mandated 
to develop technology the way NASA was. And of course, NASA and 
NOAA are very different kinds of agencies, although at the time 
that NOAA was formed in 1970, there was talk of the Ocean and 
Atmospheric Agency being something of a wet NASA.
    It was never to be. It is within the Department of 
Commerce, and I can make a case for that being legitimate. But 
it has really constrained the agency for being a worthy sort of 
parallel agency to the space agency that it is sometimes 
likened to.
    Part of it does relate to the lack of a mandate within what 
NOAA is to really further the development of new technology, 
the engineering that could be and should be, must be supported 
if we are to gain access to the sea that is anything like our 
access to the skies above.
    We need not only systems so simple that scientists can use 
them, but so simple that Senators and everybody, little kids, 
have access to the sea. And in fact, we have seen through 
private initiative, the development of passenger submarines 
that little kids and grandparents, businessmen, anyone can get 
in and at least gain access to the ocean without getting wet.
    And that's a good thing, it's a step in the right 
direction. But it is far short of what we really need to 
accomplish the needs that are at hand.
    Mr. Farr. But is there more pressure, lobbying pressure, 
because we do the basic research for equipment under the NASA 
scenario? And then the equipment manufacturers come to the Hill 
and lobby for that? I mean, nobody comes in here and lobbies me 
except for, you know, some vessels. But nobody lobbies me for 
an undersea vehicle.
    Dr. Earle. Well, stand by.
    [Laughter.]
    Mr. Tysall. What would your address be, Mr. Farr?
    Mr. Farr. No, I mean, you do, in discussions like this, but 
there's no Lockheed or General Motors out there or Pratt 
Whitney or any of those companies that lobby much for ocean 
vehicles.
    When you think about it, on ecotourism and all our people 
living along the coast, do you know that the No. 1 tourist 
attraction in America is the Los Angeles beaches?
    Mr. Saxton. New Jersey.
    [Laughter.]
    Mr. Farr. There's more people in L.A. You can have them all 
in New Jersey, if you want.
    Mr. Saxton. We in New York.
    Mr. Farr. But it doesn't take rocket science to say if 
people want to go right there to the water's edge, what kind of 
business there would be to want to rent a car to drive it right 
into the ocean and have a rental car system that would have a 
vehicle that you could drive around under the sea. I mean, that 
may happen in our lifetime. Somebody is going to make a lot of 
money on that, but there's nobody in here lobbying that we do 
the research to do that.
    Dr. Earle. I think part of the problem stems from the fact 
that we are terrestrial, air-breathing creatures and it seems 
that the ocean is an inhospitable place for us. Again, I think 
in the last 25 years, we have seen a growing change of 
attitude. But it has yet to get to the point where people are 
as inspired with the concept of being able to go out into the 
sea as they are about going up into the sky.
    And yet, I think part of the reason people are maybe 
reluctant to undertake that is because when they go to the 
beach, at least in the last few years, they have seen things 
like the hypodermic needles on the Jersey Shore. And people 
don't want to dive in places where they know sewers are 
flowing.
    We have to turn things around in parallel to showing why 
it's important to get out and see the oceans from the inside 
out, to make those connections. But I am encouraged, because 
those people who are entering the sea, either as swimmers, as 
snorkelers, as divers, are a growing constituency and a growing 
voice, growing Ambassadors for the creatures out there and for 
the state of the oceans as a whole.
    I think we have the message loud and clear from all of you 
that this is an important mission for us to come back and let 
these voices be heard, so that you will have the support you 
need to really follow through with the leadership and be able 
to inspire others to follow your lead.
    Mr. Saxton. Dr. Earle and Dr. Foster and Mr. Tysall, we are 
unfortunately running out of time. I know that we could stay 
here and have a productive conversation for quite some time 
longer about these and many other related subjects.
    But I want to thank you for coming here to be with us 
today. We will look forward to a long and continuing 
partnership with each of you. Thank you very much.
    [Whereupon, at 11:38 a.m., the Subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
   Statement of Dr. Sylvia A. Earle, Explorer-in-Residence, National 
                           Geographic Society

    Good morning. I am Dr. Sylvia Earle, Explorer-in Residence 
at the National Geographic Society and currently Project 
Director for the Society's Sustainable Seas Expeditions. Thank 
you Mr. Chairman, and members of the Subcommittee, for this 
opportunity to testify on the work the National Geographic is 
doing with NOAA and many other partners in promoting the 
importance of the oceans and one of our most precious marine 
resources, the national marine sanctuaries.
    The Sustainable Seas Expeditions were conceived while I was 
chief scientist for NOAA in the early 1990s. At that time, I 
was able experience first hand just how terrible one man's 
impact can be on the ocean as a witness to Sadam Hussein's 
ecoterrorism in the Persian Gulf. The experience of witnessing 
destruction of this ecosystem magnified, in my mind, the 
importance of the United State's investment in protecting its 
most special marine areas for the future. However, despite the 
fact the marine sanctuaries were established over 25 years ago, 
I was surprised on joining NOAA by our lack of information 
about the state of their health and the absence of tools to 
undertake the job of marine protection. While these marine 
protected areas were acknowledged to be critically important to 
policies governing the conservation of coastal marine 
resources, their effective management was crippled by our lack 
of knowledge about the nature of the environment below about 
100 feet. Even in shallow water, limited diving time severely 
compromised the ability of observers to gain insights about 
underwater systems comparable to those that we take for granted 
on land. About 20 minutes is the maximum duration of a normal 
dive at 100 feet.
    I was also struck by the fact that many people were totally 
unaware of these young but promising underwater counterparts of 
the National Parks. In addition, many are still not aware that 
the United States has jurisdiction over an aquatic realm from 
the coastline to the edge of the Exclusive Economic Zone, 200 
miles seaward, that is larger than the land area of the United 
States.
    This lack of knowledge about the oceans provided the 
inspiration to conduct an exploration of the marine sanctuaries 
in the same spirit that President Jefferson launched the Lewis 
and Clark Expedition over two centuries ago. It was the 
inspiration from this well-known chapter in American history 
that grew into a five-year, multi-million dollar initiative, 
the Sustainable Seas Expeditions, funded by the Richard & Rhoda 
Goldman Fund and launched by the National Geographic Society in 
April 1998. Working in close collaboration with marine 
sanctuary managers and other scientists, the Sustainable Seas 
Expeditions team plans to use innovative submersible technology 
to undertake the first sustained exploration of sanctuary sites 
to depths of 2,000 feet--to photodocument the natural history 
of each sanctuary's plants and animals and to establish 
permanent marine monitoring field stations within the sanctuary 
system. These objectives are critical to the development of 
more adequate marine conservation protocols. I have attached a 
schedule and list of preliminary goals we hope to accomplish 
through our program.
    Another part of the inspiration for this program was the 
National Geographic Society's history applying private support 
to the creation of new conservation policies. Without private 
support from individuals and institutions early in the 
development of the National Park Service, most notably from the 
National Geographic Society, that program may have remained 
small or perhaps disappeared altogether. A similar opportunity 
now exists for the Society to help foster an ocean ethic and 
enhance support the care and stewardship of the sea comparable 
to its efforts for precious land resources in the early days of 
the National Park Service. The Society recognized the pivotal 
role private institutions could play in nurturing the young but 
vulnerable conservation and protection goals of the national 
marine sanctuaries program--and hence the birth of the 
Sustainable Seas Expeditions.
    In just five months since the Expeditions were launched, 
the program has acted as a catalyst for support for the 
national marine sanctuaries that heretofore has not been 
possible. NOAA has provided the cornerstone of support for the 
Expeditions through the NOAA fleet and its scientific and 
technical staff. Institutions at every level, from Federal to 
non-profit, from academic to commercial, have come forward to 
add their support, recognizing the importance of the need for 
more information on the oceans and the strength that can be 
achieved through private-public partnership. As you can see in 
our blue ribbon Technical Advisory Committee for the 
Expeditions, some of our nation's finest experts are 
participating with the Society and NOAA in an unprecedented 
manner with the goal to increase the understanding of marine 
sanctuaries and develop new policies for their protection. 
Within weeks of its issuance, a call for collaboration resulted 
in the beginning of a national research program that previously 
seemed impossible given the limits of Federal funding. And we 
are seeing a similar response from the education community.
    Although the Sustainable Seas Expeditions is only in the 
first half of its first year, we feel that we are on the brink 
of developing a new way of doing business not just at the non-
profit level, but at a national level. We hope to leverage 
private funds to accomplish national objectives. Our success 
will be measured by our ability to think of new ways of working 
together, sharing talent and equipment, breaking down 
institutional barriers and building on new discoveries. We ask 
for your assistance in helping us achieve our goals by 
encouraging public agencies to match our funds and resources 
with their own. We need you to encourage the development of new 
ways to accomplish individual program objectives through joint 
ventures. We also need your leadership to inspire involvement 
of the public in a new era of exploration of the oceans. Many 
of our current ocean problems, such as storm water pollution, 
for example, cannot easily be solved by a single agency. The 
solution to many of these complex problems requires the 
combined will of an informed public. That knowledge begins with 
understanding the vital link between ocean health and human 
health and the importance of protecting one in order to protect 
the other.
    In conclusion, the Sustainable Seas Expeditions is 
embarking on a new program of exploration of the ocean and 
public education that can lead to better ocean conservation. At 
the same time, it is building a new public-private partnership 
that can change how we protect our ocean and strengthen the 
national marine sanctuaries program. These expeditions can act 
as a catalyst to allow the public and private sector to work 
together in ways that accomplish more than Federal funds can 
alone achieve. I look forward to working with you to develop 
the means to strengthen our project, this new partnership and 
the need to better protect our ocean.
    I would be pleased to answer any questions you may have.

    [GRAPHIC] [TIFF OMITTED] T1770.001
    
    [GRAPHIC] [TIFF OMITTED] T1770.002
    
    [GRAPHIC] [TIFF OMITTED] T1770.003
    
    [GRAPHIC] [TIFF OMITTED] T1770.004
    
    [GRAPHIC] [TIFF OMITTED] T1770.005
    
    [GRAPHIC] [TIFF OMITTED] T1770.006
    
    [GRAPHIC] [TIFF OMITTED] T1770.007
    
   Statement of Dr. Nancy Foster, Assistant Administrator for Ocean 
Services and Coastal Zone Management, National Oceanic and Atmospreric 
              Administration, U.S. Department of Commerce

    Good morning. I am Dr. Nancy Foster, Assistant 
Administrator for Ocean Services and Coastal Zone Management at 
the National Oceanic and Atmospheric Administration (NOAA). 
Thank you Mr. Chairman, and members of the Subcommittee, for 
this opportunity to testify on public/private research 
partnerships in NOAA's National Marine Sanctuaries. Research 
partnerships play an indispensable role in helping advance 
NOAA's coastal stewardship mission to conserve, protect, and 
enhance the biodiversity, ecological integrity, and cultural 
legacy of our Nation's valuable marine protected areas.
    It is fitting that we highlight these essential 
partnerships in this, the International Year of the Ocean, 
especially in light of the major initiatives announced at the 
National Ocean Conference in June at Monterey, California by 
President Clinton. One of the most important elements is to 
explore the oceans, the last U.S. frontier, and better 
understand how to protect marine resources. Much of this 
knowledge will be gained through public/private research 
partnerships such as the ones you will hear about today.
    This hearing also coincides with the efforts of the 
National Ocean Service to redefine itself to strengthen the 
effectiveness of NOAA's coastal stewardship mission, enhance 
research support within NOAA for coastal management, and build 
better linkages among NOAA's coastal programs. A key element in 
this process has been improving NOAA's understanding of our 
unique areas of management responsibility, including our 12 
National Marine Sanctuaries. Fundamental to this effort is our 
commitment to foster partnerships that ensure balanced 
participation and allow us to leverage NOAA's technical 
expertise with the diverse strengths available from outside the 
Federal Government. These partnerships not only help provide 
the additional scientific data and technical capabilities vital 
to improving our understanding and management of these complex 
marine ecosystems, but they also help build the public's 
awareness of the critical importance of conducting this 
research. Strong partnerships are vital to enabling the 
Sanctuary program to provide the superior marine resource 
management required to sustain these special areas for future 
generations.
    Today, I would like to summarize the importance of research 
to the National Marine Sanctuary program and the role 
partnerships play in conducting that research. This hearing 
comes in the might of one of the most successful years in the 
National Marine Sanctuary programs 26 year history, much of 
which is due to the strong internal and external partnerships 
that NOAA has participated in. I think it most appropriate that 
you hear about these productive collaborations directly from 
your other witnesses, Dr. Sylvia Earle and Mr. Terrence Tysall. 
NOAA is very fortunate to have the National Geographic Society 
and the Cambrian Foundation as partners. Rather than discuss in 
detail specific partnerships, Mr. Chairman, I would like to 
submit for the record, attached with my written statement, a 
summary of the public/private research partnerships currently 
under way in our 12 National Marine Sanctuaries.
    As trustees for the Nation's system of marine protected 
areas, NOAA needs the support of the private sector, academia, 
industry and others to help manage and protect these unique 
public resources. A critical component of this support is to 
provide NOAA with the high quality research needed to make 
sound management decisions, implement effective field 
operations, and to evaluate the effectiveness of NOAA's 
management strategies on our Nation's valuable natural and 
cultural marine resources. Our Sanctuaries are natural 
laboratories in which we can test, refine, prove and implement 
the linkages between scientific theories and management 
practices. Many of the lessons learned can be applied outside 
of the Sanctuaries. Because of their exceptional significance 
and their irreplaceable value to the nation, it is imperative 
that the Sanctuaries be able to draw upon high quality research 
expertise and facilities.
    Although NOAA is the Nation's premiere scientific agency 
for ocean (and atmospheric) research, we also recognize our 
limitations. At times, it seems that the questions that need 
answers are as boundless as the oceans themselves. It will not 
surprise anyone on this Subcommittee that more resources are 
needed to fully address these challenges. This is where the 
value of partnerships truly stands out. An abundance of 
knowledge, skills, expertise, creativity, and resources is 
available in this country, whether it be from Federal, state, 
academic, private or other institutions that NOAA can 
collaborate with to help accomplish its mission. Strong, well-
focused partnerships help NOAA address needs beyond available 
resources.
    The National Marine Sanctuary program's role in public/
private partnerships includes identifying areas and gaps where 
partnerships can best address outstanding needs, seeking the 
appropriate partners to address those needs, and bringing 
sufficient resources to the table to adequately support NOAA's 
commitment to the partnership effort. In the past, NOAA has 
developed partnerships in areas as diverse as the Sanctuaries 
themselves. A few examples are multi-lingual education at the 
Channel Islands Sanctuary, fish resource inventories in the 
Florida Keys, and even a benefit concert by the popular country 
band ``Little Texas'' to raise funds for monitoring activities 
at the Flower Gardens Sanctuary.
    Partnerships are expected to play an important, well-
defined role in the first-ever comprehensive National Marine 
Sanctuary Research Plan currently under development. The 
Research Plan will ensure that all National Marine Sanctuaries 
have the capability to effectively coordinate site-specific 
planning and research, identify and address priority research 
areas relevant to important management issues, and direct NOAA 
and external resources to where the most critical needs exist.
    Also, the Plan will encourage development of partnerships 
to implement cross-cutting scientific projects involving 
multiple sites that cut across regions. We also expect to 
establish clear criteria for data quality and management for 
monitoring and other research programs, and make information 
produced through Sanctuary sponsored research programs widely 
accessible and user friendly.
    Some of the key goals of the Plan are to fully understand 
the nature of the many threats to our nation's valued marine 
resources and ecosystems by monitoring the condition of 
protected resources and tracking natural and human-induced 
changes. NOAA expects to enhance its capabilities to better 
respond to resource damage incidents and restore marine 
habitats important to those communities that rely on healthy, 
vibrant marine resources.
    In conclusion, NOAA has long recognized the value of 
public/private partnerships that enhance research efforts 
needed in the National Marine Sanctuaries. The two exciting 
partnerships that will be highlighted this morning demonstrate 
the National Marine Sanctuary Program's unique ability to find 
willing partners, leverage appropriated dollars and realize 
significant benefits. The development of a system-wide Research 
Plan will provide the guidelines needed to ensure that future 
partnerships are focused where most needed. I look forward to 
working with you next year, Mr. Chairman, to update the 
Subcommittee regarding our progress in developing new 
partnerships under the Research Plan, when your Subcommittee 
begins to consider reauthorization of the National Marine 
Sanctuaries Act.
    Thank you for the opportunity to discuss research 
partnerships in NOAA's National Marine Sanctuaries. I would be 
pleased to answer any questions you may have.

    SUMMARY OF NATIONAL MARINE SANCTUARY PUBLIC-PRIVATE PARTNERSHIPS

                             SEPTEMBER 1998

Stellwagen Bank NMS, MA

University of Connecticut
Ivar Babb/Peter Auster, NURC-NAGL

    One of the key research partners for this sanctuary; 
provides considerable support for sanctuary research and 
education. Leads critical habitat research program at SBNMS, 
which is on the cutting-edge of providing and understanding the 
important role habitats play in sustaining marine resources. 
The Center is also assisting the sanctuary with understanding 
the acoustic environment, and the effects of human-generated 
sound on the marine mammals that return to this critical 
habitat every year. UCONN, through the NURC-NAGL, provides us 
with access to advanced underwater technologies such as ROVs 
and manned submersibles, essential to conducting effective 
research in a sanctuary generally too deep to allow safe 
diving.

Woods Hole Oceanographic Institution
Porter Hoagland, Marine Policy Center

    Marine Policy Center provides significant support in a 
number of areas related to understanding the socioeconomic 
implications of sanctuary management. Conducted a study of the 
economics of whale watching at SBNMS (one of the 10 top whale 
watching sites in the world according to World Wildlife Fund), 
developed an inventory of existing marine protected areas in 
the Gulf of Maine (a project that is part of our activities 
associated with the Gulf of Maine Council on the Marine Envi-

ronment), and has agreed to provide socioeconomic analysis for 
our upcoming management plan review.

Massachusetts Institute of Technology
Dr. Jim Bellingham, AUV Program

    Collaborative work, in cooperation with NURC-NAGL, 
deploying MIT's Autonomous Underwater Vehicle (AUV) Odyssey to 
field test its capabilities to map the sanctuary seabed. Have 
collaborated on a number of other proposals which did not 
receive funding.

Dr. Judith Kildow, Department of Ocean Engineering

    Graduate students, under the direction of Dr. Kildow, 
produced an environmental monitoring program for the sanctuary, 
which is being used both to help the sanctuary formulate 
monitoring priorities and to assist the NMS program to develop 
a national program-wide monitoring initiative.

University of North Carolina at Wilmington (UNCW)
Dr. Larry Cahoon

    Dr. Cahoon is a participant in our habitat research team 
and leads an effort, funded largely by NURC-NAGL, to shed light 
on changes to seabed production in areas where considerable 
fishing activity occurs. UNCW has participated in at least 
three sanctuary research cruises, focusing on demersal 
zooplankton and seabed productivity.

Harbor Branch Foundation
Tim Askew, Operations Manager

    Through NURC-NGL, cutting-edge technologies in submersible 
and ROV systems have been deployed and yielded considerable 
information regarding seabed processes in the Sanctuary. Harbor 
Branch's Vessels SEA DIVER and EDWIN LINK have been platforms 
for critical research in the Sanctuary, supporting both ROVs 
and manned submersible CLELIA, such as a lobster habitat 
research project funded by NURC-NAGL.

Monitor NMS, NC

The Mariners' Museum
Claudia Pennington, Director

    The Mariners' Museum is this sanctuary's key partner. 
Through a long-term memorandum of understanding, the museum 
serves as principal museum for sanctuary education programs, 
curation of the Monitor Collection of artifacts and documents, 
and artifact conservation. The museum is currently preparing a 
conservation and exhibit facility for the conservation, 
curation and interpretation of large components to be recovered 
from the Monitor. The museum is also working with NOAA for the 
development of the USS Monitor Research Center, to be located 
at the museum.

National Undersea Research Center/University of North Carolina 
at Wilmington (NURC/UNCW)
Lance Horn or Doug Kesling, Operations

    One of the key research partners for this sanctuary, NURC/
UNCW provides essential support for sanctuary deepwater 
research and training. During the most recent on-site research 
expeditions, NURC/UNCW provided dive training support, 
decompression chamber and operators, dive equipment and 
research divers. Because of the unique relationship between 
NOAA's National Ocean Service and the National Undersea 
Research Program, NURC's services are available to this 
sanctuary at a fraction of the estimated cost of obtaining 
equivalent services from an outside contractor.

Cambrian Foundation
Terrence Tysall, President

    This private, nonprofit foundation is dedicated to 
conducting deepwater diving research projects. The foundation 
has committed resources for long-term research at the Monitor 
sanctuary. The foundation, which conducted NOAA-permitted 
private research at the sanctuary for several years, 
participated as a full partner in NOAA's 1998 Monitor 
Expedition. The foundation provided training, equipment and 
research divers for the expedition, absorbing a large portion 
of the associated costs.

U.S. Navy, Naval Sea Systems Command (NAVSEA)
CDR Christopher Murray, Commanding Officer
Mobile Diving and Salvage Unit Two (MDSU Two)

    MDSU Two provided essential personnel and equipment for the 
highly successful 1998 Monitor Expedition. Using a Navy-leased 
vessel as a research platform, Navy and NOAA divers worked 
together for the recovery of the Monitor's propeller, hull 
plates and other artifacts, as well as for the recovery of data 
required for the next phase of on-site stabilization and 
research.

Oceaneering Technologies
A division of Oceaneering International
Leonard Whitlock, Engineer

    Oceaneering holds a NAVSEA contract for support of Navy 
ocean research and salvage. In 1997, Oceaneering provided, at 
no cost to the government, a preliminary assessment and 
recovery plan for the preservation of the Monitor's hull and 
the recovery of major hull components.

Gray's Reef NMS, GA

Skidaway Institute of Oceanography, Savannah, GA
Dr. Herb Windom, Acting Director

    The Gray's Reef National Marine Sanctuary program offices 
are located on the campus of the Skidaway Institute of 
Oceanography (SkIO). Under Joint Project Authority of the 
Department of Commerce, SkIO and Gray's Reef have entered into 
a long-term agreement to collaborate on research, conservation 
and educational activities. Through this agreement SkIO 
provides access and use of all its facilities including 
research vessels, Distance Learning Center and marine 
operations equipment. SkIO also provides staff and research 
faculty support for all facets of sanctuary research and 
educational programs.

National Undersea Research Center at the University of North 
Carolina/Wilmington (UNCW) Wilmington, NC
Tom Potts, Assistant Science Director

    The Center at UNCW has provided considerable support for 
Gray's Reef over the past 4-5 years in establishing monitoring 
programs, providing research coordination and training of staff 
and volunteer divers. UNCW has conducted extensive surveys of 
the sanctuary using their ROVs to provide video confirmation of 
reef features identified with side scan sonar surveys. They 
have provided training to staff for Nitrox diving certification 
and have visited sanctuary offices on two different occasions 
to provide week long dive certification training for volunteer 
divers from local universities. Tom Potts serves in a part-time 
capacity as the sanctuary's Research Coordinator and has 
ensured that the sanctuary research needs receive priority in 
the NURC annual call for proposals from the scientific 
community.

University of Georgia, Athens GA
Dr. Erv Garrison

    For four years Dr. Garrison has been providing time and 
scientific equipment to Gray's Reef to explore the 
paleoenvironmental conditions of the sanctuary. His work 
includes extensive diving and survey of a portion of the reef 
that has significant fossil resources. He has also conducted 
sub-bottom surveys of the reef and adjacent areas to explore 
ancient drowned riverbeds and has been participating in media 
events and stories relating to the work at the sanctuary.

Georgia Southern University, Statesboro GA
Dr. Jim Henry

    Dr. Henry has been directly involved with the sanctuary 
program at Gray's Reef since its inception. He has conducted a 
variety of geological studies of the reef and continues to 
contribute to the sanctuary program by providing advisory 
services, review of documents and support for geophysical 
surveys. He has also encouraged other GSU faculty to focus 
their work where feasible in the sanctuary and this has 
resulted in support for GRNMS loggerhead sea turtle studies, 
reef fish and invertebrate monitoring and paleoenvironmental 
sediment characterization.

Marine Resources Research Institute, Charleston SC
Dr. Jack McGovern

    Through support from the National Marine Fisheries 
Services, MRRI has conducted five years of reef fish assessment 
surveys in the sanctuary. Their efforts under the MARMAP 
program have provided the most reliable scientific data for the 
sanctuary on the status of targeted recreational fish species.

Florida Keys NMS, FL

Florida Institute of Oceanography, St. Petersburg
Dr. John Ogden (813-553-1100.

    Since 1992 FIO has worked with the sanctuary on providing 
the best available science for use in management decisions. FIO 
implemented the SEAKEYS program which
        <bullet> established long-term automated physical oceanographic 
        monitoring stations along the reef tract,
        <bullet> monitored coral change over a 4 year period, and
        <bullet> quantified hydrological linkage between Florida Bay 
        and the sanctuary.
    As part of SEAKEYS, two educational posters were produced to 
graphically show linkages in the ecosystem. Last year, FIO was awarded 
a $200K monitoring grant to look at the effects of the no-take zones on 
the coral community. Dr. Ogden is leveraging that money to get private 
funding to enhance the study to investigate the replenishment potential 
of marine reserves.

National Undersea Research Center at the University of North Carolina-
Wilmington (NURC/UNCW),
Bob Wicklund, Director; Dr. Steven Miller, Science Director

    For the past seven years, NURC/UNCW has operated the world's most 
active and productive coral reef research program involving both a day-
boat program and a saturation mission program. The sanctuary and NURC 
work hand-in-hand on science planning, permitting, and logistics. It is 
essentially the research arm of the sanctuary. (A good indicator of our 
cooperation together is that NURC RFP for research now lists 
investigating the effect of the no-take zones as a major funding 
priority.) NURC manages our Level I contract to Ogden and conducts a 
yearly rapid assessment of the no-take zones.

Mote Marine Lab, Sarasota and Pigeon Key
Dr. Kumar Mahadevan, Director; Dr. Erich Mueller, Pigeon Key Marine 
Research Center director

    The Pigeon Key lab has been operating in the sanctuary for the past 
three years and focuses on cutting edge coral reef restoration 
techniques, coral disease research, and investigating the cause and 
effect of episodic events in the sanctuary. Mote will be funding two 
post-doctoral fellows to assist with the science coming out of the SSE 
initiative.

Flower Garden Banks NMS, TX/LA

Gulf of Mexico Foundation--Flower Gardens Fund
Dr. Quenton Dokken, Director

    Provides financial and in-kind support for research and education 
at the Sanctuary. Has been instrumental in initiating partnerships with 
business and industry, including Mobil, Shell, Oryx, and BP 
Exploration. Annually provides financial assistance to graduate 
students conducting a variety of work in the Sanctuary. Sponsors the 
annual Education Workshop & Field Excursion for classroom teachers and 
informal educators.

Channel Islands NMS, Santa Barbara, CA
University of California, Santa Barbara (UCSB)

    Channel Islands National Marine Sanctuary (CINMS) has partnered 
with UCSB scientists to study the impacts of El Nino storm runoff on 
the marine environment--specifically in the Santa Barbara Channel and 
the sanctuary. Since early February, El Nino generated storms have 
resulted in nearly two-thirds of the Santa Barbara Channel being 
inundated with freshwater, terrestrial sediments, agricultural runoff 
and other debris. The runoff creates a visible pattern of nutrient rich 
brown sediment plumes which, in turn, produces green marine algal 
blooms.

Southern California Coastal Water Research Project (SCCWRP)

    CINMS has partnered with the Southern California Coastal Water 
Research Project (SCCWRP) and 54 organizations, including international 
and volunteer organizations, to participate in a regional marine 
monitoring survey of the Southern California Bight, referred to as the 
Bight '98 Project. The project includes the measurement of a variety of 
indicators at roughly 300 sites between Point Conception and just south 
of the Mexican Border. The indicators measured will include benthic 
invertebrate assemblages, sediment contaminant concentrations, sediment 
toxicity, demersal fish assemblages, demersal fish gross pathology, 
demersal fish bioacummulation, dissolved oxygen, temperature, salinity, 
transmissivity and marine debris.
    The overall goal of Bight '98 is to assess the condition of the 
bottom environment and the health of the biological resources in the 
SCB. To accomplish this goal, Bight '98 will focus on four objectives: 
(1) estimate the extent and magnitude of ecological change in the SCB, 
(2) compare condition among selected geographic regions of the SCB, (3) 
assess the relationship between biological responses and contaminant 
exposure, and (4) describe historical trends at selected sites.

Monterey Bay NMS, CA

Monterey Bay Aquarium Research Institute (MBARI)
Marcia McNutt, President

    MBARI and MBNMS share facilities and scientific expertise to 
achieve their missions. MBARI is providing the large training tanks for 
submersible training for the Sustainable Seas Expeditions. They provide 
satellite images and buoy data related to oceanographic monitoring, and 
have recently completed a sea floor map that is so detailed that 
potential ship wrecks can be located. The MBNMS has provided MBARI 
scientists ship time on the R/V McArthur for El Nino studies and we 
have worked closely together on the cause and effects of toxic algal 
blooms. MBARI has a representative on the MBNMS Research Activities 
Panel. This panel advises the Sanctuary on research issues while 
providing a forum for collaboration between 22 research institutions in 
the Monterey Bay region. In the future, MBARI and MBNMS are planning 
for a combined postdoctoral position. The position would be funded by 
MBARI and the post doc would be located at the MBNMS office, working on 
a joint project of interest.

MBNS Research Activity Panel (RAP)
Dr. Greg Cailliet

    Working under the auspices of the Sanctuary Advisory Council, the 
RAP is composed of 22 representatives--14 from private and university 
marine research institutions. The RAP meets nine times per year to 
advise the MBNMS on research and scientific issues, as well as to 
coordinate research, logistics (such as shiptime) and funding issues 
among the various institutions represented. This group of research 
talent helps the sanctuary develop action plans for difficult resource 
management issues, for instance on the issues of White Shark chumming, 
or diver impacts on kelp beds. Also, the sanctuary gains significant 
knowledge about the region's biological resources due to the active 
research conducted by the RAP members.

Moss Landing Marine Laboratories
Dr. Don Croll, University of California at Santa Cruz
Critical Marine Mammal Habitats Study

    Starting 1995, the sanctuary has directed resources to studying the 
critical habitats of large cetaceans (whales) in the sanctuary. While 
the sanctuary region has long been known for its diversity of marine 
cetaceans, little was known about what brings so many large mammals to 
the specific locations in the Sanctuary. This study by researchers at 
the University of California, Santa Cruz assessed sea floor topography, 
oceanic currents and the distribution of prey to explain recent unusual 
phenomena of coastal congregations of whales.

Moss Landing Marine Laboratories
Monterey Bay EMS BeachCOMBERS
Dr. James Harvey

    The MBNMS Beach Coastal and Ocean, Mammal and Bird, Education and 
Research Surveys (COMBERS) program began two years ago with only 
partial funding by the MBNMS. The program was created through the 
recruitment of volunteer beach walkers to collect standardized 
scientific data on beached and dead marine birds and mammals. The goal 
of the study is to create a database of information from which 
environmental ``events'' (El Ninos, Red Tides, Oil Spills, etc.) within 
the sanctuary can be evaluated for ecological significance. The program 
has responded to oil spills, found tagged animals from throughout the 
Pacific, detected toxic algal blooms, provided data related to impacts 
of gill net fishing on birds, and saved a drowning citizen.

California State University Monterey Bay
Dr. Rikk Kvitek
MBNMS Site Characterization

    One of the first research projects conducted by various research 
universities and partially funded by the sanctuary is known as the 
``MBNMS Site Characterization.'' While the area encompassed by the 
sanctuary has become world renown for its cutting edge marine research, 
little had been done to synthesize and abstract the available 
environmental information. The sanctuary site characterization is an 
encyclopedia of information about the sanctuary environs (which 
includes a 10,000 record bibliography), and is served out over the 
internet to the general public. Individual chapters were donated by 
academic experts from numerous disciplines. The sanc-

tuary site characterization has become a educational tool for resource 
managers, scientists, teachers and students at all levels of education.

Gulf of the Farallones NMS, CA
Cordell Bank NMS, CA

The Marine Mammal Center (MMC)
Dr. Francis Gulland

    MMC provides early detection and tracking of mortality events in 
the sanctuary as part of the five-year old BeachWatch program. Also 
educates the public about how to best coexist with wildlife and reduce 
disturbance and taking of seal pups as part of the sanctuary's SEALS 
program.

Farallones Marine Sanctuary Association (FMSA)
Maria Brown

    FMSA provide educational opportunities, information exchange with 
the public--particularly school children--volunteer coordination, and 
data housing. Partner in both the BeachWatch and SEALS programs.

Olympic Coast NMS, WA

University of Washington (UW)
Dr. Julia Parrish.

    In addition to OCNMS helping Dr. Parrish's seabird research with 
logistical support, Dr. Parrish is a key player for OCNMS as the 
Research Representative on the Sanctuary Advisory Council. Dr. Barbara 
Hickey. Aboard NOAA ship McARTHUR, conducted physical oceanographic 
investigations along the shelf and canyons of OCNMS.

Dr. Rita Homer and Jim Postel.

    Mr. Postel and Dr. Homer have taken advantage of OCNMS's offer of 
ship time to conduct investigations for marine biotoxins and 
phytoplankton species off the Olympic coast. Dr. Megan Dethier Dr. 
Dethier has helped OCNMS establish intertidal transects for monitoring 
long-term trends in nearshore communities.

California State University Monterey Bay (CSUMB)
Dr. Rikk Kvitek

    Dr. Kvitek and his dive team have been key players in establishing 
subtidal transects for sanctuary baseline data, video habitat 
characterization, and for monitoring long-term trends of nearshore 
communities.

University of California Santa Cruz (UCSC)
Michael Kenner

    UCSC's dive team has helped the sanctuary establish baseline data 
for subtidal habitat characterization and to monitor long term trends 
in sea otter habitats.

Oregon State University
Dr. Carl Schoch

    Dr. Schoch has been instrumental in establishing on-site 
inventories of geomorphological characterizations of shoreline into GIS 
with links to biological communities, that OCNMS and other agencies are 
using for resource inventories.

Ecoscan Resource Data (ECI)
Bob VanWagenen

    ECI has flown annual aerial surveys for OCNMS and other resource 
agencies to monitor long-term trends in kelp canopy cover and digitize 
into GIS.

Coastal Maritime Archeology Resources (CMAR)
Mark Norder

    CMAR volunteer divers conduct survey work for historical shipwrecks 
off the Olympic coast while OCNMS provides logistical and vessel 
support.

Hawaiian Islands Humpback Whale NMS, HI

University of Hawaii, West Hawaii
Dr. Joe Mobely

    The university recently completed a sanctuary sponsored aerial 
surveys of humpback whales (and other cetacean) populations in Hawaii. 
This is important since the sanctuary has limited data on where the 
humpback whales reside or how many are actually here. Some of the 
highlights of the just completed study include:
        <bullet> Estimated--2-3000 humpbacks
        <bullet> Sperm whales--more than expected in Hawaiian waters
        <bullet> Fin whales--second recorded siting.
        <bullet> Distribution of humpbacks has not changed over the 
        past 10 years, even though boat and vessel traffic has 
        increased in areas such as Maui.

Fagatele Bay NMS, AS

University of Guam Marine Laboratory
Dr. Charles Birkeland

    FBNMS has a research partnership with the University of Guam Marine 
Laboratory that extends back to 1988. Under the direction of Dr. 
Birkeland, we have a biological resource survey approximately every 
three years. This database is one of the oldest longitudinal studies of 
a Pacific coral reef. The survey has documented changes in the coral 
and fish populations with the recovery from the crown-of-thorns 
starfish infestation of 1978, and represents a significant management 
tool.

[GRAPHIC] [TIFF OMITTED] T1770.008

[GRAPHIC] [TIFF OMITTED] T1770.009

[GRAPHIC] [TIFF OMITTED] T1770.010

[GRAPHIC] [TIFF OMITTED] T1770.011

[GRAPHIC] [TIFF OMITTED] T1770.012

[GRAPHIC] [TIFF OMITTED] T1770.013

[GRAPHIC] [TIFF OMITTED] T1770.014

[GRAPHIC] [TIFF OMITTED] T1770.015

[GRAPHIC] [TIFF OMITTED] T1770.016

[GRAPHIC] [TIFF OMITTED] T1770.017


</pre></body></html>
